7-=     .                       -                                                                                -
        I      .   =




                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM




             We received an allegation of intellectual theft involving NSF-supported research. Specifically,
             the Complainant alleged that an innovative programming concept was appropriated fiom hi$
             unpublished work and falsely presented by the Subject and his collaborators1 (in publications
             acknowledging NSF suppod) as their own original work. Experts who reviewed the matter
             concluded that the allegation was without substance, and the Subject provided us with a
             convincing intellectual history of the idea. We concurred with the experts and concluded that the
             Subject was unaware of the Complainant's research. Accordingly, this case is closed.




1




                                                  I




I




    NSF OIG Form 2 (llhl2)
